           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




        AMERICAN RECOVERY
   AND REINVESTMENT ACT OF 2009
      DATA QUALITY REVIEWS

     October 2009   A-15-10-21045




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                 SOCIAL SECURITY
MEMORANDUM

Date:      October 30, 2009                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   American Recovery and Reinvestment Act of 2009 Data Quality Reviews
           (A-15-10-21045)


           OBJECTIVE
           Our objectives were to determine whether the Social Security Administration (SSA) had
           established a process to perform limited data quality reviews to (1) identify material
           omissions and/or significant American Recovery and Reinvestment Act of 2009
           (Recovery Act) reporting errors; and (2) notify the recipients of the need to make
           appropriate and timely changes. We also reviewed SSA’s process for monitoring
           recipient reporting of recovery funds for the quarter ended September 30, 2009.

           BACKGROUND

           Under the Recovery Act, SSA received $1.09 billion for program and operational
                       1
           purposes. Congress also provided $2 million for SSA’s Office of the Inspector General
           (OIG) to conduct audits and oversee Recovery Act-funded SSA programs, projects, and
                      2
           activities. Recovery Act oversight requirements state “. . . [n]ot later than 10 days after
           the end of each calendar quarter, each recipient that received recovery funds from a
           Federal agency shall submit a report to that agency that contains--

           1. the total amount of recovery funds received from that agency;
           2. the amount of recovery funds received that were expended or obligated to projects
              or activities; and
           3. a detailed list of all projects or activities for which recovery funds were expended or
              obligated…” 3



           1
            Pub. L. No. 111-5, Division A, Title VIII, H.R. 1-71 to H.R. 1-72; and Division B, Title II § 2201(e)(2),
           H.R. 1-339.
           2
               Pub. L. No. 111-5, Division A, Title VIII, H.R. 1-72.
           3
               Pub. L. No. 111-5, Division A, Title XV § 1512(c), H.R. 1-173.
Page 2 - The Commissioner


The Office of Management and Budget (OMB) provided the following guidance to
Federal agencies and funding recipients to effectively implement Recovery Act
reporting requirements.
• OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of
   Funds Pursuant to the American Recovery and Reinvestment Act of 2009,
   June 22, 2009.

•   OMB Memorandum M-09-30, Improving Recovery Act Recipient Reporting,
    September 11, 2009.

Memorandum M-09-21 transmitted Government-wide guidance for fulfilling the reporting
requirements included in section 1512 of the Recovery Act. Section 3.12 lists the data
elements Federal agencies will use to review recipient reports and requires that Federal
agencies develop internal policies and procedures for reviewing reported data.

Section 1512 of the Recovery Act requires that recipients of Recovery Act contracts,
grants, or loans submit reports on funds received no later than 10 days after the end of
each calendar quarter. FederalReporting.gov serves as the official Government
Website for recipient reporting. The first reporting period ended on October 10, 2009.
Since this was the first time recipients submitted data reports and some States
encountered technical challenges filing bulk reports for their recipients,
FederalReporting.gov reported it would remain open for reporting until
October 20, 2009. During this 10-day grace period, late filers could submit their
required quarterly reports. However, they were first required to explain why their
reporting was delayed, and they were informed they would be identified on
Recovery.gov as late filers.

To perform our review, we followed the Recovery Act Reporting Data Quality Review
Guide, approved by the Recovery Accountability and Transparency Board on
September 11, 2009. The Review Guide outlines the six steps, presented in the
Results of Review section of this report, for Inspectors General in determining whether
Federal agencies established a process to perform limited data quality reviews intended
to identify material omissions and/or significant reporting errors and notify the recipients
of the need to make appropriate and timely changes.

RESULTS OF REVIEW
We determined SSA’s policies and procedures are adequate for reviewing quarterly
Recovery Act data pursuant to OMB Memorandum M-09-21 (section 3.12). We
reviewed SSA’s process for monitoring recipient reporting of Recovery Act funds for the
quarter ended September 30, 2009, as follows.

1. Obtain the Federal agency’s policy and procedures for reviewing quarterly
   Recovery Act data pursuant to OMB Memorandum M-09-21 (section 3.12).

We obtained and reviewed SSA’s policies and procedures for reviewing contractor
quarterly Recovery Act reports. Management and policy staff in SSA’s Office of
Acquisition and Grants (OAG) held an all-hands meeting on April 21, 2009 to discuss
Page 3 - The Commissioner


Recovery Act awards. OAG issued a Flash Notice 4 on April 17, 2009 (amended on
September 30, 2009) to its contracting officers detailing their post-contract-award
monitoring duties for contractor data submitted to FederalReporting.gov. The notice
provided background and highlights of the Recovery Act and the actions required if
Recovery Act dollars are used to fund contracts. OAG management and policy staff
also met with contracting officers responsible for performing the limited data quality
reviews on October 9, 2009 to discuss the policy.

2. Determine how the agency plans to ensure that all prime recipients have filed
   the required quarterly reports pursuant to section 1512 of the Recovery Act
   and how the agency will ensure that it conducts the required reviews of the
   reported data.

Memorandum M-09-21, section 3.12, requires that Federal agencies review recipient
reported data. Section 3.12 states that Federal agencies may extract the data
elements to validate recipient reports for compliance, accuracy, and consistency with
Federal award data. For example, reported data may be used to ensure all Federal
recipients have submitted the required reports. Additionally, the guidance states that
amounts may be validated for consistency to ensure individual or aggregate values do
not exceed the agency amounts awarded or disbursed.

We determined SSA had plans to ensure all prime recipients filed the required quarterly
reports and conduct the required reviews of the reported data. These plans are
detailed in the Agency’s Flash Notice.

3. Conduct a walk-through of the agency’s process to perform limited data
   quality reviews.

We conducted a walk-through of several limited data quality reviews performed by OAG
staff and management. We observed staff validating the data reported by several
recipients on FederalReporting.gov in October 2009. We also observed senior OAG
staff reviewing recipient reports to compare with SSA’s acquisition system. The
comparisons were made to perform limited data quality reviews as well as determine
whether contractors had appropriately registered and submitted reports on
FederalReporting.gov.




4
 Flash Notice 05:09-01.01, Contract Actions Funded by the American Recovery and Reinvestment Act,
September 30, 2009.
Page 4 - The Commissioner


4. Determine whether the agency’s policy and procedures have been designed to
   emphasize the avoidance of two key data problems: material omissions and
   significant reporting errors.

According to OMB guidance, 5 the definitions of a significant error and material
omission are as follows.

        A significant error is defined as data that is not reported accurately and
        where such erroneous reporting results in significant risk that the public
        will be misled or confused by the contractor’s report. Examples of
        significant errors include, but are not limited to:

         The cumulative invoiced amount reported is in excess of the obligation;
         The contractor incorrectly selects fully complete, to describe an
          incomplete project; or;
         The contract award/obligation amount was for a relatively small dollar
          amount, such as $100,000, and the contractor reports the number of
          jobs created and retained cumulatively as 100,000.

        A material omission is defined as data that is not responsive to a specific
        data element. When reviewing for material omissions, the agency
        reviewer should do so with the goals of transparency in mind. For
        instance, where the contractor is required to provide a narrative
        description, it must be sufficiently clear to facilitate understanding by the
        general public.

We determined SSA policies and procedures were designed to emphasize avoiding
material omissions and significant reporting errors. The policies and procedures were
detailed in the Agency’s Flash Notice. To emphasize the avoidance of material
omissions and significant reporting errors, SSA policies and procedures require that
contracting staff and management validate recipient Recovery Act reports with award
data in SSA’s acquisition database. To avoid material omissions and significant
reporting errors in the period ended September 30, 2009, SSA staff and management
reviewed recipient data to ensure all recipients had submitted reports. We reviewed
documentation prepared by OAG staff to report, to contractors, issues discovered
during the limited data quality reviews. We observed SSA management verifying
submitted reports to determine whether contractors who reported under the SSA
agency code had actually received Recovery Act funding from SSA. Also, SSA
contracting staff validated amounts reported for consistency to ensure the individual or
aggregate values did not exceed the agency amounts awarded or disbursed.

5
  OMB, Office of Federal Procurement Policy, Memorandum for the Chief Acquisition Officers and Senior
Procurement Executives, Interim Guidance on Reviewing Contractor Reports on the Use of Recovery Act
Funds in Accordance with FAR Clause 52-204-11. The agency review is intended to identify significant
errors or material omissions in Recovery Act contractor reports. Agency reviewers are not expected to
validate data for which they would not normally have supporting information, such as the compensation of
a contractor’s top officers. However, an obvious or significant error is something agencies should identify
to the contractor.
Page 5 - The Commissioner


5. Determine whether the agency has an adequate process in place to remediate
   systemic or chronic reporting problems.

We determined the Agency had an adequate process in place to remediate systemic or
chronic reporting problems, given the low-volume of Recovery Act contracts the Agency
has awarded. We learned from SSA management that, because the Agency does not
have a large number of Recovery Act awards, 6 it does not anticipate having systemic or
chronic reporting problems. If OAG reviews the reports and finds common errors, it will
address the issues.

6. With the understanding that M-09-21 is a reporting tool rather than a
   management tool, determine whether the agency anticipates that it will be able
   to use the reported information as a tool for:

    a) assessing compliance with the terms and conditions of award agreements,
    b) assessing risk, and
    c) determining when to release remaining funds.

The Agency anticipates it may be able to use the reported information to assess
compliance with award agreements only in terms of the Recovery Act reporting
requirements, to assess risk in terms of the reporting process, and as a limited tool for
determining when to release remaining funds. That is, if a contractor does not register
on FederalReporting.gov, they are not complying with the contract’s terms and
conditions and can be held liable. Also, if a contractor does not make the required
reports, they can be held liable for not complying with the contract’s terms and
conditions. Finally, the Agency can pursue withholding outstanding payments.

CONCLUSION
We determined SSA established a process to perform limited data quality reviews to
(1) identify material omissions and/or significant Recovery Act reporting errors and
(2) notify the recipients of the need to make appropriate and timely changes. We also
reviewed SSA’s process for monitoring recipient reporting of recovery funds for the
quarter ended September 30, 2009, and found that staff and management were
following the policies and procedures they put in place to review contractor reporting.




                                                     Patrick P. O’Carroll, Jr.




6
 As of October 19, 2009, SSA had issued 22 Recovery Act awards and planned to issue approximately
20 additional awards.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                Appendix A
Acronyms
ARRA           American Recovery and Reinvestment Act of 2009
OAG            Office of Acquisition and Grants
OIG            Office of the Inspector General
OMB            Office of Management and Budget
Pub. L. No.    Public Law Number
Recovery Act   American Recovery and Reinvestment Act of 2009
SSA            Social Security Administration
                                                                     Appendix B
Scope and Methodology
To accomplish our objective we:

      Reviewed applicable sections of the American Recovery and Reinvestment Act
       of 2009 (Recovery Act).

      Reviewed Office of Management and Budget (OMB) memorandums for the
       heads of departments and agencies.

             M-09-10, Initial Implementing Guidance for the American Recovery and
              Reinvestment Act of 2009, February 18, 2009

             M-09-15, Updated Implementing Guidance for the American Recovery
              and Reinvestment Act of 2009, April 3, 2009

             M-09-21, Implementing Guidance for the Reports on Use of Funds
              Pursuant to the American Recovery and Reinvestment Act of 2009,
              June 22, 2009, and Supplement 1, List of Programs Subject to ARRA
              Section 1512 Recipient Reporting, and Supplement 2, Recipient
              Reporting Data Model

             M-09-30, Improving Recovery Act Recipient Reporting,
              September 11, 2009

      Reviewed applicable sections of the Federal Acquisition Regulation.

      Reviewed Social Security Administration (SSA) Flash Notice 05:09-01, Contract
       Actions funded by The American Recovery and Reinvestment Act (Recovery Act)
       and FN 05:09-01.01, Contract Actions Funded by the American Recovery and
       Reinvestment Act, and Attachment A - Recovery Act – Reporting Requirements
       Contracting Officer’s Checklist.

      Reviewed FederalReporting.gov, registered, and reviewed contractor data.

      Reviewed SSA’s Recovery Act information posted at
       www.socialsecurity.gov/recovery and www.recovery.gov.

      Reviewed Recovery Act Reporting Data Quality Review Guide for the Inspector
       General Community. The Data Quality Review Guide was approved by the
       Recovery Accountability and Transparency Board on September 11, 2009.




                                          B-1
      Interviewed Office of Acquisition and Grants staff to:

             Obtain SSA’s policies and procedures for reviewing quarterly Recovery
              Act data pursuant to OMB Memorandum M-09-21 (section 3.12).

             Determine how SSA plans to ensure all prime recipients have filed the
              required quarterly reports pursuant to section 1512 of the Recovery Act
              and how SSA will ensure it conducts the required reviews of the reported
              data.

             Conduct a walk-through of SSA’s process to perform limited data quality
              reviews.

             Determine whether SSA’s policies and procedures have been designed to
              emphasize avoiding material omissions and significant reporting errors.

             Determine whether SSA has an adequate process in place to remediate
              systemic or chronic reporting problems.

             With the understanding that M-09-21 is a reporting tool rather than a
              management tool, determine whether SSA anticipates that it will be able
              to use the reported information as a tool for:

                   a) assessing compliance with the terms and conditions of award
                      agreements,
                   b) assessing risk, and
                   c) determining when to release remaining funds.

We performed our review in Baltimore, Maryland, in September and October 2009. We
conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.




                                            B-2
                                                                              Appendix C
 Agency Comments



                                  SOCIAL SECURITY

MEMORANDUM

Date:      October 28, 2009                                              Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/ Mike Gallagher For
           Acting Chief of Staff

Subject:   Office of the Inspector General Draft Report (OIG), “American Recovery and
           Reinvestment Act of 2009 Reporting” (A15-10-21045)--INFORMATION


 Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
 efforts in conducting this review. We have no comment on the draft report.

 Please let me know if we can be of further assistance. Please direct staff inquiries to
 Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division
   Deborah Kinsey, Audit Manager

Acknowledgments

In addition to those named above:

   Jackie Patel, Auditor-In-Charge
   Donna Parris, Auditor
   Ronald Anderson, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-21045.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
